KYLE D. HAWKINS
Solicitor General

(512) 936-1700
Kyle.Hawkins@oag.texas.gov

December 1, 2020
Via E-File
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Torres v. Tex. Dep’t of Public Safety, No. 20-603

Dear Mr. Harris:
In accordance with Supreme Court Rule 30.4 and the Court’s Order of March 19,
2020, Respondent the State of Texas, respectfully requests an extension of the time
for filing its response to the petition for a writ of certiorari in this matter.
Petitioners filed their petition for a writ of certiorari on November 2, 2020, and
it was docketed on November 5. The Court requested a response on November 24,
creating a deadline for Respondents’ brief in response of December 28, 2020.
Respondents request a 30-day extension of that deadline, creating a new filing date
of January 27, 2021.
The extension is necessary because lead counsel for Respondent was not
personally involved in the matter before the Fifth Circuit and has had numerous
briefing and argument obligations since Petitioners filed their petition for certiorari
on November 2. Lead counsel’s caseload has significantly increased due to COVID19-related litigation involving the State of Texas and its officials and, more recently,
multiple emergency election-law matters that have required expedited briefing and
argument. Lead counsel’s obligations include:
• November 9 – Brief in opposition filed in Planned Parenthood Center for Choice
v. Abbott, No. 20-305;
P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

Page 2
• November 10 – Oral argument in California v. Texas, Nos. 19-840, 19-1019
(U.S.);
• November 23 – Brief in opposition filed in Texas Democratic Party v. Abbott,
No. 17-51060 (U.S.);
• December 1 – Brief in opposition due in City of Austin v. Paxton, No. 19-1441
(U.S.);
• December 2 – En banc supplemental brief due in Whole Woman’s Health v.
Paxton, No. 17-51060;
• December 23 – Opening brief on the merits due in Richardson v. Hughs, No.
20-50774.
• January 11 – Brief in opposition due in Ysleta del Sur Pueblo, et al. v. Texas,
No. 20-493.
For the foregoing reasons, Respondent respectfully requests a 30-day extension
of the deadline to file its response to the petition for a writ of certiorari, creating a
new deadline of January 11, 2021.
Counsel to Petitioner confirmed that Petitioner is unopposed to the requested
extension.
Respectfully submitted.
/s/ Kyle D. Hawkins
Kyle D. Hawkins
Solicitor General
Counsel of Record
cc: Andrew T. Tuft (counsel of record)

P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

